                                               NATIONAL SCIENCE FOUNDATION
                                                OFFICE OF INSPECTOR GENERAL
                                                 OFFICE OF INVESTIGATIONS

                                          CLOSEOUT MEMORANDUM

Case Number: I05100054
                                                                            11         Page 1 of 1


                                                                                            I



                In the course of a proactive review, we observed that a diary note in anmlaward'sl
         ejacket stated that nearly $400,000 remained unexpended at the beginning of the third year
         of the award. We opened this case because of concerns about why such large sums were
         apparently unaccounted for. We interviewed the program officer, who explained.that the
         amount of unexpended funds was not unusual with this type of award, in light of the
         particular circumstances; the project is currently on track, with a budget that was adjusted to
         account for the funds carried over. Accordingly, this case is closed.




                                                                                                       I!
\ISF OIG Fom12 (11102)
